No. 19-816
In the

Supreme Court of the United States
__________________

KRISTINA BOX, ET AL.,
Petitioners,
v.
PLANNED PARENTHOOD OF INDIANA
AND KENTUCKY, INC.,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Seventh Circuit

__________________

BRIEF OF KENTUCKY, ALABAMA, ALASKA,
ARIZONA, ARKANSAS, IDAHO, KANSAS,
LOUISIANA, MISSISSIPPI, MISSOURI, NEBRASKA,
OKLAHOMA, SOUTH CAROLINA, SOUTH DAKOTA,
TEXAS, UTAH, AND WEST VIRGINIA AS AMICI
CURIAE SUPPORTING PETITIONERS

__________________

DANIEL CAMERON
S. CHAD MEREDITH
Attorney General of Kentucky
Solicitor General
Counsel of Record
BARRY L. DUNN
Deputy Attorney General
MATTHEW F. KUHN
Deputy Solicitor General
Office of the Kentucky
BRETT R. NOLAN
Attorney General
Special Litigation Counsel
700 Capital Avenue
Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
chad.meredith@ky.gov
Counsel for Amici Curiae
January 27, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTERESTS OF AMICI CURIAE . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I. This case is a good vehicle to resolve a
longstanding circuit split over parental-notice
statutes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
II. States have a compelling interest in encouraging
parental involvement in a child’s decision to
have an abortion . . . . . . . . . . . . . . . . . . . . . . . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

ii
TABLE OF AUTHORITIES
CASES
Bellotti v. Baird,
443 U.S. 622 (1979). . . . . . . . . . . . . . . . . . . passim
Causeway Med. Suite v. Ieyoub,
109 F.3d 1096 (5th Cir. 1997). . . . . . . . . . . . . . . . 7
Ginsberg v. State of N.Y.,
390 U.S. 629 (1968). . . . . . . . . . . . . . . . . . . . . . . 12
Globe Newspaper Co. v. Super. Ct. for
Norfolk Cty., 457 U.S. 596 (1982). . . . . . . . . . . . 11
Gonzales v. Carhart,
550 U.S. 124 (2007). . . . . . . . . . . . . . . . . . . . 13, 14
H.L. v. Matheson,
450 U.S. 398 (1981). . . . . . . . . . . . . . . . . . . . 13, 14
Harris v. McRae,
448 U.S. 297 (1980). . . . . . . . . . . . . . . . . . . . . . . 13
Hodgson v. Minnesota,
497 U.S. 417 (1990). . . . . . . . . . . . . . . . . . . . . . . . 5
New York v. Ferber,
458 U.S. 747 (1982). . . . . . . . . . . . . . . . . . . . 11, 12
Ohio v. Akron Ctr. for Reprod. Health,
497 U.S. 502 (1990). . . . . . . . . . . . . . . . . . . . . . . . 5
Okpalobi v. Foster,
244 F.3d 405 (5th Cir. 2001). . . . . . . . . . . . . . . . . 7
Pierce v. Soc’y of the Sisters of the Holy Names
of Jesus & Mary, 268 U.S. 510 (1925) . . . . . 10, 11

iii
Planned Parenthood of S.E. Pa. v. Casey,
505 U.S. 833 (1992). . . . . . . . . . . . . . . . . . 4, 13, 14
Planned Parenthood of the Blue Ridge v. Camblos,
155 F.3d 352 (4th Cir. 1998). . . . . . . . . . . . . . 6, 14
Planned Parenthood, Sioux Falls Clinic v. Miller,
63 F.3d 1452 (8th Cir. 1995). . . . . . . . . . . . . . . 6, 7
Prince v. Massachusetts,
321 U.S. 158 (1944). . . . . . . . . . . . . . . . . . . . 10, 12
Quilloin v. Walcott,
434 U.S. 246 (1978). . . . . . . . . . . . . . . . . . . . . . . 10
Schall v. Martin,
467 U.S. 253 (1984). . . . . . . . . . . . . . . . . . . . . . . 12
Stanley v. Illinois,
405 U.S. 645 (1972). . . . . . . . . . . . . . . . . . . . 10, 11
Vernonia Sch. Dist. 47J v. Acton,
515 U.S. 646 (1995). . . . . . . . . . . . . . . . . . . . . . . 12
Washington v. Glucksberg,
521 U.S. 702 (1997). . . . . . . . . . . . . . . . . . . . . . . 13
Whole Woman’s Health v. Hellerstedt,
136 S. Ct. 2292 (2016). . . . . . . . . . . . . . . . . . . . 8, 9
Wisconsin v. Yoder,
406 U.S. 205 (1972). . . . . . . . . . . . . . . . . . . . 10, 11
STATUTES
Ind. Code § 16-34-2-4(e) . . . . . . . . . . . . . . . . . . . . . 4, 5

1
INTERESTS OF AMICI CURIAE1
In the decision below, a divided panel of the United
States Court of Appeals for the Seventh Circuit
enjoined an Indiana statute requiring that the parents
of an unemancipated minor receive notice when their
child decides to have an abortion without parental
consent. The Court of Appeals did so without any
discussion of the compelling interest that States have
in encouraging parental involvement in these kinds of
life-altering decisions. And it disregarded the
important interest that States have in promoting
parental liberty—an interest that this Court has
repeatedly affirmed.
The amici States seek to protect the most
vulnerable members of society—children—as they face
consequential decisions like whether to have an
abortion. And as part of that, the amici States have an
interest in ensuring they can use every regulatory tool
available to protect the health and well-being of
children, including requiring parental notice for minors
obtaining an abortion without parental consent.
SUMMARY OF THE ARGUMENT
Without question, States have a greater ability to
regulate abortion access for minors than they do for
adults. That is why this Court has upheld parentalconsent statutes for minors, which may not survive
scrutiny if applied to adults. Yet in the decision below,
the Seventh Circuit analyzed Indiana’s parental-notice
1

Amici have notified counsel for all parties of their intention to file
this brief. Sup. Ct. Rules 37.2(a), 37.4.

2
statute by using the benefits-and-burdens analysis that
it would use for resolving the constitutionality of a law
intended to provide medical benefits for adult women.
By doing so, the Seventh Circuit ignored longstanding
precedent from this Court that firmly establishes the
States’ heightened interest in protecting the well-being
of children.
Moreover, by engaging in its benefits-and-burdens
analysis, the Seventh Circuit deepened a pre-existing
circuit split over how to apply Bellotti v. Baird, 443
U.S. 622 (1979), to parental-notice statutes. Several
circuits have disagreed over whether the judicialbypass requirements announced in Bellotti for
parental-consent laws also apply when states require
parental notice. That was precisely the question raised
in the case below, and the Seventh Circuit answered it
by declaring Bellotti irrelevant. This case now presents
a perfect opportunity to resolve a decades-old split
among the lower courts.
Finally, in resolving the circuit split, this Court
should reaffirm the well-established principle that
parents are entitled to shape the life and moral
direction of their children. Nowhere does this matter
more than when a child faces a decision as significant
as whether to have an abortion. But rather than take
seriously the importance of a parent’s role in guiding
his or her child through tumultuous moments, the
Seventh Circuit treated the parent-child relationship
like it was a medical procedure subject to testing for
efficacy and cost. That approach must be rejected.
States have an undeniable interest in fostering
environments where parents can guide and nurture

3
their children so that they can grow into mature and
productive adults. As Judge Kanne observed in his
dissenting opinion below, that interest extends to
ensuring a child receives guidance from her parents
before she “makes an irrevocable and profoundly
consequential decision.” Pet. App. 41a–42a. Indiana’s
statute does just that.
ARGUMENT
In its Petition, Indiana asks an important question
about a court’s ability to nullify a parent’s interest in
shaping the life and moral direction of his or her child.
That alone deserves the attention of the Court. So, it is
surprising that the Seventh Circuit’s decision contains
no hint of the deep quandary lying at the heart of this
case. To the Court of Appeals, this case was simply a
matter of applying the Court’s undue-burden standard
the same as it would for any other regulation governing
pre-viability abortions for adults. While the amici
States believe the Seventh Circuit applied that
standard wrongly, it should not have applied it all.
This Court should grant certiorari to resolve a
longstanding circuit split over whether parental-notice
statutes must include a judicial bypass similar to what
the Court required in Bellotti—a split deepened by the
Seventh Circuit’s decision. And in granting certiorari,
the Court should reaffirm the profound respect for
parental liberty that it has repeatedly shown before.

4
I. This case is a good vehicle to resolve a
longstanding circuit split over parental-notice
statutes.
In Bellotti, the Court recognized that States have
significantly more leeway to regulate abortions for
minors than they might have over adults. See Bellotti,
443 U.S. at 649. It held that “as a general rule,” States
may require parental consent before a minor obtains an
abortion. Id. But because this will often place the
ultimate decision about whether to have an abortion in
the hands of someone other than the pregnant mother,
the Court mandated a couple of exceptions to the
general rule. Specifically, when a State requires
parental consent, it must provide a procedural bypass
for minors who can demonstrate an extraordinary level
of maturity or for whom parental consent is not in their
best interest. Otherwise, States may constitutionally
prohibit minors from having abortions without the
approval of their parents. See Planned Parenthood of
S.E. Pa. v. Casey, 505 U.S. 833, 899 (1992) (affirming
the holding in Bellotti that “a State may require a
minor seeking an abortion to obtain the consent of a
parent or guardian”).
Bellotti led to a second question: When a child has
an abortion without parental consent, can a State
nevertheless require that her parents be notified?
Under the Indiana statute at issue in this case,
parents have the right to receive notice when their
unemancipated child obtains judicial approval for an
abortion without her parent’s consent. See Ind. Code
§ 16-34-2-4(e). Ordinarily, notice must come from the
attorney representing the minor. But if the court finds

5
that notice would not be in the child’s best interests,
such as when the child comes from an abusive home, it
may waive the requirement. Id. This allows for
meaningful exceptions to the notice requirement, but it
does not include an exception for an extraordinarily
mature minor, as required by Bellotti in the parentalconsent context.
Of course, a statute requiring notice differs in kind
from a statute requiring consent. See Hodgson v.
Minnesota, 497 U.S. 417, 496 (1990) (Kennedy, J.,
concurring in the judgment in part and dissenting in
part). That’s because, as Justice Kennedy observed,
“[u]nlike parental consent laws, a law requiring
parental notice does not give any third party the legal
right to make the minor’s decision for her.” Id. So when
a State requires that parents be notified of their child’s
decision to obtain an abortion, it does not allow them to
“exercise an absolute, and possibly arbitrary, veto over
[the abortion] decision.” Hodgson, 497 U.S. at 445 (op.
of Stevens, J.) (internal quotation marks omitted); see
also Ohio v. Akron Ctr. for Reprod. Health, 497 U.S.
502, 511 (1990). Whatever burden a parental-notice
statute imposes on a minor’s ability to obtain an
abortion, it is markedly less than a statute requiring
parental consent.
Yet this Court has never decided whether the
bypass procedure outlined in Bellotti must also be
available to the same extent for a child seeking to avoid
a parental-notice law. See Akron, 497 U.S. at 510
(“[A]lthough our cases have required bypass procedures
for parental consent statutes, we have not decided
whether parental notice statutes must contain such

6
procedures.”). This left an opening for the circuits,
which have since split in answering the question. But
until the Seventh Circuit’s decision below, that split in
judgment followed a relatively coherent path.
1. The Fourth Circuit rejected the argument that
parental-notice statutes must have “the full panoply of
safeguards required by the Court in Bellotti.” Planned
Parenthood of the Blue Ridge v. Camblos, 155 F.3d 352,
367 (4th Cir. 1998). It gave two primary reasons for
reaching this conclusion. First, requiring notice simply
does not create the kind of obstacle that the Bellotti
Court worried about because it does not prevent a
minor from making her own decision. Second, there are
compelling reasons for States to encourage parental
involvement in these decisions—reasons that this
Court has repeatedly recognized in rejecting other
attempts at circumventing parental authority. So the
Fourth Circuit reached a common-sense answer to the
problem. It held that so long as “a parental notice
statute does not condition the minor’s access to
abortion upon notice to abusive or neglectful parents,
absent parents who have not assumed their parental
responsibilities, or parents with similar relationships
to their daughters, we do not believe that more is
required.” Id. at 367.
The Fifth and Eighth Circuits have disagreed. In
Planned Parenthood, Sioux Falls Clinic v. Miller, 63
F.3d 1452 (8th Cir. 1995), the Eighth Circuit held that
“the State has no legitimate interest in imposing a
parental-notice requirement” for mature minors or
those for whom it would not be in their best interest,
thus mandating a Bellotti-style judicial bypass. Id. at

7
1460. Though the court acknowledged that there are
differences between parental consent and notice, it
concluded that States only have an interest in
requiring parental notice for immature minors. Thus,
any restriction on a mature minor’s ability to obtain an
abortion—or a minor who otherwise fits in the “best
interests” exception—would amount to an undue
burden. Id. The Fifth Circuit reached a similar
conclusion for a slightly different reason. In Causeway
Medical Suite v. Ieyoub, 109 F.3d 1096 (5th Cir. 1997),
overruled on other grounds by Okpalobi v. Foster, 244
F.3d 405 (5th Cir. 2001), the court held that requiring
parental notification was contrary to the confidentiality
requirements of Bellotti. Id. at 1112. So even after
acknowledging that this Court had distinguished
between parental consent and notice statutes in prior
decisions, the Fifth Circuit found the distinctions
meaningless for constitutional purposes. Id.
Despite disagreeing over whether parental-notice
statutes must include a Bellotti judicial bypass, the
lower courts—until the decision below—agreed on the
question they were asking. Bellotti is built on the
premise that States are permitted to treat minors
differently than adults when regulating their access to
abortion. See Bellotti, 443 U.S. at 649. So when faced
with a law requiring parental notice, the first step is
acknowledging that States have more authority over a
minor’s access to abortion than over an adult. See
Miller, 63 F.3d at 1460 (“The answer, of course, is that
they are minors, and States may impose requirements
on immature minors that it may not impose on
adults.”). Bellotti, after all, permitted parental-consent
statutes as “the general rule,” so long as they contained

8
a judicial bypass for exceptional cases. Bellotti, 443
U.S. at 649. That is why the question for the courts
below had traditionally been whether, under Bellotti, a
notice statute creates the same kind of burden that a
consent statute does. And though the Eighth and Fifth
Circuits answered this question wrongly, they at least
gave a wrong answer to the right question.
2. Then came the Seventh Circuit. Rather than
confront Bellotti (and the several decisions that
followed), the Court of Appeals focused only on the
undue-burden standard as articulated in Whole
Woman’s Health v. Hellerstedt, 136 S. Ct. 2292
(2016)—a case that, as Indiana correctly points out in
its Petition, had nothing to do with minors at all. After
finding that Indiana’s parental-notice statute did not
satisfy Hellerstedt’s balancing test, the Seventh Circuit
declared Bellotti irrelevant and declined to address it
at all. See Pet. App. 34a.
Indiana’s Petition thoroughly describes the
problems with the Seventh Circuit’s application of
Hellerstedt, see Pet. 15–22, and the amici States need
not address those in more detail. Suffice it to say that
there are serious problems with how the Court of
Appeals went about balancing the benefits and burdens
of the statute at issue in this case—problems that this
Court could address by granting certiorari and
clarifying the meaning of Hellerstedt.
But more problematic is that the Seventh Circuit
applied Hellerstedt at all. Hellerstedt dealt with a
challenge to state law regulating the qualifications for
performing abortions, such as requirements that
physicians obtain admitting privileges at nearby

9
hospitals. See Hellerstedt, 136 S. Ct. at 2291. The
question for the Court was whether the burden
imposed outweighed the medical benefits of the
regulation. Id. No part of the state law challenged in
Hellerstedt governed minors as minors, nor did the case
involve any discussion of the State’s interest in
regulating minors differently than adults. Those issues
simply had nothing to do with the case.
That might not matter if this Court’s jurisprudence
treated adults and minors the same when it came to
abortion access. But it does not. Bellotti clearly holds
that States have a greater right to regulate abortion
access for minors than they might have for adults. See
Bellotti, 443 U.S. at 649. That includes prohibiting previability abortions for some minors who cannot obtain
parental consent—an act that would presumably not
survive balancing under Hellerstedt, with or without a
judicial bypass.
By engaging in a Hellerstedt balancing analysis to
assess the constitutionality of Indiana’s parental-notice
statute, the Seventh Circuit deepened a pre-existing
circuit split that this Court should resolve. And it did
so by directly undermining the Court’s decision in
Bellotti, which has been repeatedly reaffirmed in the
years since.

10
II. States have a compelling interest in
encouraging parental involvement in a child’s
decision to have an abortion.
Bellotti did not arise in a vacuum. While the
Seventh Circuit gave short shrift to the States’ interest
in encouraging parental involvement in the abortion
decision, those interests have deep roots that this
Court has long recognized. By granting Indiana’s
Petition, the Court can once again reaffirm the States’
strong interest in fostering familial relationships that
allow parents to play an active role in guiding the lives
and moral directions of their children.
1. Parents play a unique role in our society. “[T]he
custody, care and nurture of the child reside first in the
parents, whose primary function and freedom include
preparation for obligations the state can neither supply
nor hinder.” Prince v. Massachusetts, 321 U.S. 158, 167
(1944) (citing Pierce v. Soc’y of the Sisters of the Holy
Names of Jesus & Mary, 268 U.S. 510, 534–35 (1925)).
In fact, this Court has described a parent’s role in
nurturing his or her children as an obligation—a “high
duty”—not simply a right to be respected if a parent so
chooses. Pierce, 268 U.S. at 535.
It comes as no surprise then that this Court has
long recognized the importance of protecting strong
relationships between parents and children. See, e.g.,
Quilloin v. Walcott, 434 U.S. 246, 255 (1978) (citing
Wisconsin v. Yoder, 406 U.S. 205, 231–33 (1972)). As
the Court explained in Stanley v. Illinois, the ability “to
raise one’s children [has] been deemed essential.” 405
U.S. 645, 651 (1972) (internal citations and quotation
marks omitted). It “undeniably warrants deference

11
and, absent a powerful countervailing interest,
protection.” Id.
On that basis, this Court has found several
governmental attempts at interfering with parent-child
relationships invalid. Those include mandatory-publicschool laws, which prevent parents from directing the
education and moral upbringing of their children. See
Pierce, 268 U.S. at 534–36; Yoder, 406 U.S. at 214 (“[A]
State’s interest in universal education, however highly
we rank it, is not totally free from a balancing process
when it impinges on . . . the traditional interest of
parents with respect to the religious upbringing of their
children . . . .”). And they also include state laws that
arbitrarily pass judgment on the fitness of a child’s
parent. See Stanley, 405 U.S. at 657–58. These laws
diminish the ability of parents to raise their children,
replacing their judgment with the judgment of the
state. They are repugnant to a free society.
That is not to say that States have no interest in
taking care of their citizen-children as well. States
have their own compelling interest in “safeguarding the
physical and psychological well-being of a minor.” New
York v. Ferber, 458 U.S. 747, 756 (1982) (quoting Globe
Newspaper Co. v. Superior Court for Norfolk Cty., 457
U.S. 596, 607 (1982)). To that end, states
unquestionably act pursuant to legitimate regulatory
authority when they pass laws intended to promote the
well-being of children within their borders. See
Ginsberg v. State of N.Y., 390 U.S. 629, 639 (1968)
(“The well-being of its children is of course a subject
within the State’s constitutional power to
regulate . . . .”). And on top of that, states typically

12
have a stronger right to regulate “the conduct of
children” than they might have “over adults.” Prince,
321 U.S. at 170. So in many cases—not just
abortion—states can act for the benefit of children in
ways that might be unconstitutional if applied against
adults.
This Court has confirmed as much. The Court has
upheld a number of state actions intended to safeguard
minors that could not pass constitutional scrutiny if
applied to adults. Included in the group are pretrial
detention proceedings for juveniles, see Schall v.
Martin, 467 U.S. 253, 281 (1984), obscenity laws that
apply only to minors, see Ginsberg, 390 U.S. at 638–39,
random drug-testing for student athletes, see Vernonia
Sch. Dist. 47J v. Acton, 515 U.S. 646, 664–65 (1995),
and of course, parental-consent laws for obtaining an
abortion, see Bellotti, 443 U.S. at 640–41. In all of these
cases, the Court has been guided by the states’
important role in protecting the “well-being of its
children.” Ginsberg, 390 U.S. at 639.
The State’s interest in protecting children dovetails
perfectly with “[t]he unique role in our society of the
family.” Bellotti, 443 U.S. at 634. If States have a
compelling interest in “safeguarding the physical and
psychological well-being of a minor,” Ferber, 458 U.S.
at 758, and parents are best equipped to provide the
kind of “care and nurture” that a State cannot, Prince,
321 U.S. at 166, it follows (perhaps uncontroversially)
that States have an overwhelming interest in fostering
environments that allow parental involvement to
flourish. See Bellotti, 443 U.S. at 642. Laws that
encourage parents to take an active role in guiding

13
their children as they face consequential decisions
inevitably promote the interests of the State.
2. Perhaps no circumstance demonstrates this more
than when a child faces a decision as consequential as
having an abortion.
No one would deny that, even for adults, States
have a significant interest in regulating abortions. See
Casey, 505 U.S. at 846. Those interests include both
“protecting the health of the woman and the life of the
fetus that may become a child.” Id. In fact, as this
Court has explained, States act pursuant to their
legitimate interests when enacting laws that ensure a
woman’s decision “is mature and informed, even when
in so doing the State expresses a preference for
childbirth over abortion.” Id. at 883. States, in other
words, may permissibly discourage abortion as a means
to promote the well-being of both the woman and her
unborn child.
The reason that States have such a compelling
interest in regulating abortion needs little explanation.
States certainly have an interest in regulating the
medical profession in general. See Gonzales v. Carhart,
550 U.S. 124, 157 (2007) (quoting Washington v.
Glucksberg, 521 U.S. 702, 731 (1997)). And “[a]bortion
is inherently different from other medical procedures,
because no other procedure involves the purposeful
termination of a potential life.” Harris v. McRae, 448
U.S. 297, 325 (1980). It is a “unique act” that is
“fraught with consequences.” Casey, 505 U.S. at 852.
“The medical, emotional, and psychological
consequences of an abortion are serious and can be
lasting . . . .” H.L. v. Matheson, 450 U.S. 398, 411

14
(1981). And those consequences affect not only the
unborn child, but also “the woman who must live with
the implications of her decision.” Casey, 505 U.S. at
852. “[I]t seems unexceptional to conclude that some
women come to regret their choice to abort the infant
life they once created and sustained. Severe depression
and loss of esteem can follow.” Gonzales, 550 U.S. at
159 (internal citations omitted). States plainly have an
interest when their citizens face such potential
consequences. That is true whether the pregnant
mother is a child or an adult.
Given the stakes, there is obvious value in laws
designed to “enhance[e] the potential for parental
consultation concerning a decision that has potentially
traumatic and permanent consequences.” Matheson,
450 U.S. at 412. “[P]arents naturally take an interest
in the welfare of their children,” Bellotti, 443 U.S. at
648, so States are well-served by encouraging parental
involvement with their children as they face the
ramifications of such a profound decision. See Gonzales,
550 U.S. at 159–60 (“It is self-evident that a mother
who comes to regret her choice to abort must struggle
with grief more anguished and sorrow more profound
when she learns, only after the event, what she once
did not know . . . .”). And that is true no matter how
mature the pregnant minor is. While a court might find
her mature enough to make the decision on her own,
“even the most mature teenager will benefit from the
experienced advice of a parent, and, as a consequence
of that dialogue, make a more informed, better
considered, abortion choice.” Camblos, 155 F.3d at 374.

15
Parental-notice statutes like the one passed by
Indiana’s legislature lie firmly at the intersection of a
State’s interest in promoting parental liberty and the
well-being of its citizens. They do so without depriving
minors of the ultimate decision to obtain an abortion
when a court determines they have the maturity to
make that choice. In granting certiorari here, the Court
can reset the balance between the family and the State,
giving parents the room needed for “teaching, guiding,
and inspiring” our children so that they may grow “into
mature, socially responsible citizens.” Bellotti, 443 U.S.
at 638. This Court has rightfully recognized those noble
goals before. It should do so again in this case.
CONCLUSION
The Court should grant Indiana’s Petition for Writ
of Certiorari and reverse the Seventh Circuit’s decision
below.
Respectfully submitted,
DANIEL CAMERON
Attorney General of
Kentucky

S. CHAD MEREDITH
Solicitor General
Counsel of Record

BARRY L. DUNN
Deputy Attorney
General

MATTHEW F. KUHN
Deputy Solicitor General
BRETT R. NOLAN
Special Litigation Counsel

Office of the Kentucky
Attorney General
700 Capitol Ave., Ste.118
Frankfort, KY 40601
(502) 696-5300
Chad.Meredith@ky.gov
Counsel for Amici Curiae

16
ADDITIONAL COUNSEL
STEVE MARSHALL
Attorney General of
Alabama

ERIC SCHMITT
Attorney General of
Missouri

KEVIN G. CLARKSON
Attorney General of
Alaska

DOUG PETERSON
Attorney General of
Nebraska

MARK BRNOVICH
Attorney General of
Arizona

MIKE HUNTER
Attorney General of
Oklahoma

LESLIE RUTLEDGE
Attorney General of
Arkansas

ALAN WILSON
Attorney General of
South Carolina

LAWRENCE G. WASDEN
Attorney General of
Idaho

JASON R. RAVNSBORG
Attorney General of
South Dakota

DEREK SCHMIDT
Attorney General of
Kansas

KEN PAXTON
Attorney General of
Texas

JEFF LANDRY
Attorney General of
Louisiana

SEAN D. REYES
Attorney General of
Utah

LYNN FITCH
Attorney General of
Mississippi

PATRICK MORRISEY
Attorney General of
West Virginia

